OIG Investigative Reports, Defendant Pleads Guilty in Case Involving Bribery and Fraud Scheme in American Samoa
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
PRESS RELEASE
FOR IMMEDIATE RELEASE
Tuesday, February 3, 2004
www.usdoj.gov
CRM
(202) 514-2008
TDD (202) 514-1888
DEFENDANT PLEADS GUILTY IN CASE INVOLVING BRIBERY AND FRAUD SCHEME IN AMERICAN SAMOA
WASHINGTON, D.C. – Assistant Attorney General Christopher
A. Wray of the Criminal Division announced today that Kerisiano Sili Sataua, the
former director of the American Samoa Department of Education (ASDOE), has pleaded
guilty to one count of conspiring to commit bribery and fraud concerning federal
programs, in violation of 18 U.S.C. § 371.
Sataua, of Pago Pago, American Samoa, pleaded guilty yesterday at the U.S. District
Court in Honolulu before the Honorable Leslie E. Kobayashi. Sentencing is scheduled for Oct.
17, 2005, before the Honorable David Alan Ezra, at U.S. District Court in Honolulu.
Sataua, who also served as chief of staff to American Samoa's former governor, admitted
to defrauding the U.S. Territory of American Samoa, the United States Department of Education
(USDOE) and other federal agencies of at least $61,000.
In his plea of guilty, Sataua admitted that beginning in 1999 and continuing until
July 2003, he agreed to fraudulently award ASDOE contracts paid for with USDOE funds to his
co-conspirators and their companies in exchange for his co-conspirators providing him with over
$9,000 in cash and goods. The ASDOE receives in excess of $10 million per year from the
USDOE and other federal agencies. Further, Sataua admitted that he stole and misappropriated
food and goods from the ASDOE School Lunch Program that were supposed to have been used
for feeding children in the American Samoa public school system. The A.S. School Lunch
Program is wholly funded by the U.S. Department of Agriculture National School Lunch
Program and the USDOE.
Sataua was the fourth defendant to plead guilty in an ongoing investigation. He faces a
maximum penalty of up to five years in prison, a three year term of supervised release, and a fine
of $250,000.
In a related case, on May 21, 2004, Fa'au Seumanutafa, former Chief Procurement
Officer for the American Samoa Government, pleaded guilty in U.S. District Court for the
District of Hawaii before the Honorable Leslie E. Kobayashi to one count of conspiracy to
defraud the United States, in violation of 18 U.S.C. § 371. The charges against Seumanutafa
stem from his role in a conspiracy to pre-set the prices on several ASDOE contracts for
bookshelves and library furniture for American Samoa schools. Seumanutafa admitted that he
used his official position to approve and submit for payment from the American Samoa
Department of Treasury numerous false purchase orders for which he received at least $80,000.
Seumanutafa is scheduled to be sentenced before the Honorable David Alan Ezra on
Feb. 22, 2005.
In another related case, on July 23, 2004, Toetu Solaita, former Program Director of the
A.S. School Lunch Program, pleaded guilty in U.S. District Court for the District of Hawaii
before the Honorable Kevin Chang to one count of conspiracy to defraud the United States, in
violation of 18 U.S.C. § 371. The charges against Solaita stem from his role in a conspiracy to
steal more than $68,000 worth of food and goods from the A.S. School Lunch Program. Solaita
admitted that he used his official position to approve his and his co-conspirators' theft of food
and goods purchased by the A.S. School Lunch Program that were supposed to have been used
for feeding children in the American Samoa Public School System. Solaita is scheduled to be
sentenced before the Honorable David Alan Ezra on April 11, 2005.
In another related case, on Oct. 1, 2004, Patolo Mageo, former Director of the American
Samoa Department of Health and Social Services (DHSS), pleaded guilty in U.S. District Court
for the District of Hawaii before the Honorable Leslie E. Kobayashi to one count of conspiracy to
defraud the United States, in violation of 18 U.S.C. § 371. The charges against Mageo stem from
his role in a conspiracy to fraudulently award DHSS contracts. Mageo admitted that he
defrauded the DHSS of at least $40,000 by fraudulently awarding several construction contracts
for the Women, Infants and Children government building and other contracts for DHSS, which
receives in excess of $16 million per year from the U.S. Department of Interior and other federal
agencies. Mageo further admitted that he used his official position as director to approve the
fraudulent award of the contracts in exchange for at least $10,000. Mageo is scheduled to be
sentenced before the Honorable Helen Gillmor on June 16, 2005.
According to the FBI, the Sataua, Seumanutafa, Solaita, and Mageo prosecutions are the
first public corruption cases to be prosecuted by federal officials involving American Samoa in
more than 15 years.
These cases are being prosecuted by Trial Attorney James A. Crowell IV of the Public
Integrity Section at the U.S. Department of Justice, Criminal Division, headed by Section Chief
Noel L. Hillman, and investigated by the Honolulu Office of the Federal Bureau of Investigation,
the Department of Education Office of Inspector General, and the Department of the Interior
Office of Inspector General.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov